     CORPORATION

     FOR N A T I O N A L




OFFICE OF THE INSPECTOR GENERAL




    Semiannual Report to the Congress

    April 1, 1997 - September 30, 1997
Office of the Inspector General                                                          CORPORATION
                                                                                         -    - -


                                                                                         FOR NATIONAL

October 3 1, 1997

Harris Wofford
Chief Executive Officer
Corporation for National
 and Community Service

Dear Senator Wofford,

This report covers the second half of fiscal year 1997 - the Corporation for National and
Community Service's fourth year of operations. During this period, we issued 14 audit reports and
completed action on 21 investigations. The results of our audit activities are summarized beginning
on page 1 of the report, followed by the results of our investigative actions on page 12. Our annual
performance statistics are also included in this report in the Summary Report of Accomplishments
for Fiscal Year 199 7 on page 23.

Follow-up on Issues Discussed in Our Prior Semiannual Report

In our previous Semiannual Report (for the period October 1, 1996 through March 31, 1997) we
commented on several issues, including continued deficiencies in the Corporation's management
controls, failure to comply with reporting requirements of the Government Corporation Control Act,
and a significant backlog in audit resolution. During this reporting period, the Corporation has taken
action to resolve these matters, as described below.

Management Controls

We reported on the Corporation's progress in improving its management controls in our July 1997
report, Report on the Follow-Study to the Auditability Survey -Phase 2. The report disclosed that
although 72 of 99 recommendations for improvements in the fiscal year 1996 Auditability Survey
had been implemented or addressed, 21 material weaknesses and other reportable conditions
continued to exist. It concluded that the Corporation's fiscal year 1994, 1995 and 1996 financial
statements cannot be effectively and efficiently audited in accordance with generally accepted
auditing standards because of the nature and significance of the internal control weaknesses during
                                                                                         1201 New York Avenue, NW
                                                                                         Washington. DC 20525
                                                                                         Telephone 202-606-5000




                                                                                         Getting Things Done.
                                                                                         AmeriCorps. National Service
                                                                                         Learn and Serve America
                                                                                         National Senior Service COP
Office of the Inspector General
Semiannual Report for the Period Ending September 30, 1997
Transmittal Letter
Page 2



those years. Further, the report expressed the view that the uncorrected deficiencies remaining at July
14, 1997, were such that they would significantly impact the extent of audit procedures that could
be performed, and potentially precluded an audit of the fiscal year 1997 financial statements.

Coincident with the issuance of the Follow-up Study report, the Corporation began a project to assess
the status of the Corporation's efforts to correct the remaining deficiencies, to coordinate corrective
actions that could be achieved by the end of the fiscal year, and to identity management issues that
extend beyond the reported conditions. At the end of August, the Corporation concluded that it was
best to redirect its resources toward achieving an auditable balance sheet as of September 30, 1997,
so that an auditor might be able to opine on the Corporation's fiscal year 1998 financial statements.

Compliance with the Government Corporation Controls Act Reporting Requirements

The Corporation has also moved towards compliance with the reporting requirements of the
Government Corporation Control Act (GCCA). As of September 30, 1997, the Corporation had
drafted its fiscal year 1995 annual report, including the financial statements and management
controls report required by the GCCA.

Although the Corporation has moved toward compliance with the GCCA reporting requirements
related to assessment of its management controls, it has yet to establish an ongoing, risk-based
management control assessment process similar to that required for Federal agencies under the
Federal Managers Financial Integrity Act. The intent of an ongoing, risk-based assessment process
is to ensure that the Corporation's resources are used efficiently and effectively to achieve intended
results, in compliance with laws and regulations, and with minimal potential for waste, fraud and
abuse. As we commented in our previous SAR, we believe that this type of comprehensive and
ongoing assessment effort is essential to fully correct the deficiencies reported in the Auditability
Survey and Follow-up Studies reports, and establish a control environment that assures reliable and
timely reporting of the Corporation's financial and programmatic results.

Audit Resolution

There has also been progress in resolving the backlog of unresolved audit reports, findings and
recommendations. The number of OIG reports with overdue management decisions has dropped
from 3 1 to 25. (These reports are listed in Table I11 of this report.)

In addition, during this SAR reporting period, OIG and management agreed to implement a new
audit resolution process. This process substitutes monthly meetings where findings and
recommendations are discussed and related issues are resolved, for the previous process which
Office of the Inspector General
Semiannual Report for the Period Ending September 30, 1997
Transmittal Letter
Page 3



revolved around the shuffling of paperwork. The meetings are attended by officials from the Grants
Management Office and other offices under the Chief Financial Officer, the Office of General
Counsel, and the OIG. All reports issued since August 1997 are to be resolved through this new
process.

Nonetheless, as required under the Inspector General Act, we are reporting that, as of September 30,
1997, the Corporation has not made final management decisions on 25 audit reports within the six
months required under Federal law. These delays are now causing the Corporation to fail in meeting
the statutory requirement to complete corrective action on audit reports within one year.
Consequently, we are reporting that, as of September 30, 1997, the Corporation had failed to
complete final action on 23 audit reports that were more than a year old. These reports are listed in
Table IV (page 20) of this report.




As you are aware, the Inspector General Act of 1978, as amended, requires that you submit this
report, along with any comments you may wish to make, as well as statistical tables and reports
required by the law, to the Congress within 30 days. In addition, the Act requires that you submit
this report, with your comments and the required information, to the Corporation's Board of
Directors no later than the date on which you submit the report to the Congress.




Luise S. Jordan
Inspector General
                                             TABLE OF CONTENTS

Introduction         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1

Auditing Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

          Reports Issued During the Period
          April 1. 1997 -- September 30. 1997                          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .10

Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
                                                                                                                                           .

           Statistical Summary of Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .15

Index to Reporting Requirements of the Inspector General Act                                      . . . . . . . . . . . . . . . . . . . . . . . . 22

Summary Report of Accomplishments for Fiscal Year 1997 . . . . . . . . . . . . . . . . . . . . . . . . . .23

TABLE I              .          Inspector General Issued Reports with Questioned Costs . . . . . . . . . . . 16

TABLE I1             . Inspector          General Issued Reports with Recommendations
                                 That Funds Be Put To Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . .17

TABLE I11            .           Summary of Audits with Overdue Management Decisions . . . . . . . . . . 18

TABLEIV              . Reports          Described in Prior Semiannual Reports
                                 Without Final Action . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .20
                                              INTRODUCTION
The Corporation for National and Community Service (CNS) was created under the National and
Community Service Trust Act of 1993. Through several programs, the Corporation offers
Americans of all ages and backgrounds the opportunity to participate in community-based service
programs. These programs include ArneriCorps State and National Direct grants, VISTA, the
National Civilian Community Corps, Learn and Serve America, and the National Senior Service
Corps.

                                       AUDITING ACTIVITIES
OIG REPORTS ON CNS FINANCIAL MANAGEMENT

During this reporting period we issued three reports assessing CNS' financial management and
operations. These reports continued to disclose material deficiencies in the Corporation's financial
systems, accounting records, and management controls. The Corporation has embarked on efforts
to strengthen its management controls and to improve its accounting records; however, correction
of these deficiencies remains critical to achieving auditable financial information for the
Corporation.

   Report on the Follow-up Study to the Auditability Survey -Phase 2 (OIG Report 97-29)

On July 14, 1997, we issued our second report on the Corporation's progress in improving its
financial management systems and in developing auditable financial statements.'

We found that the Corporation has corrected, or appropriately addressed, 72 of the original 99
findings identified in the Auditability Survey. However, 21 material weaknesses and other
reportable conditions continued to exist through much of fiscal year 1997. Due to the nature and
significance of these deficiencies, Arthur Andersen concluded that an effective and efficient audit
of the Corporation's fiscal year 1997 financial statements may not be possible. We have reviewed
Arthur Andersen's report and the workpapers supporting its conclusions and agree with the findings
and recommendations presented.

We also reported that the Corporation's management has demonstrated a commitment to correct the
financial reporting deficiencies and internal control weaknesses identified in the Auditability Survey.
Further, in its response to the report, the Corporation indicates that it will implement corrective
actions to address all outstanding conditions identified in the Auditability Survey by fiscal year end.

' Issues as to the reliability of the Corporation's financial information were first reported to Congress in March 1996. In Report
96-36, OIG reported that the Corporation's fiscal year 1994 financial statements could not be audited because of deficiencies in
systems, lack of documentation supporting the statements, and material weaknesses in CNS' management controls. In Report 96-38,
a two volume report to OIG, Williams, Adley and Company, LLP and Arthur Andersen LLP made 99 recommendations for corrective
actions necessary to produce auditable financial statements for the Corporation.
In our view, correction of the management control deficiencies discussed in phase 2 of the
auditability survey follow up and those disclosed in OIG Report 97-27, Audit of the National Service
Trust Fund Fiscal Year 1995 and 1994 Financial Statements and other OIG reports, is critical to
achieving auditable financial information for the Corporation. The following table depicts the status
of the ~orporation'scorrective actions related to the auditability survey through July 14, 1997.



                                                       Corrected1
                                                                          Corrective Action Adequately
                                                                                  Designed But                I
                                                       Addressed            Action        I   Action Not      I Not Corrected
                                                                            Not Yet           Operating
                                                                          Implemented         Effectively

 Material Weaknesses                    33
                              I
 Other Reportable
 Conditions                    I        41


 Other Observations for
 Improvement

 Total

 (*)     Includes one condition for which the Corporation's corrective action is not planned for implementation until 1998.




            Audit of the Corporationfor National Service's Gift Fund (OIG Report 97-30)
We audited the Corporation for National Service's Gift Fund for fiscal years 1994, 1995, and
1996. Our examination included an assessment of the Fund's activity to determine the Corporation's
compliance with applicable laws, regulations, and policies related to the h d , and the reliability of
the information reported.

The Corporation's records indicate that it received approximately $2.7 million in gifts and donations
during the three year period, and spent $2.2 million. However, we found that the Corporation did
not maintain adequate control over the Fund's transactions, did not reconcile its cash accounts, and
could not support over $1 60,000 of reported Gift Fund expenditures. Further, during fiscal years
1994, 1995, and 1996, Gift Fund transactions were not recorded in the general ledger, and the
records that were established did not segregate unrestricted and restricted funds. Consequently, the
Corporation lacks reasonable assurance that its Gift Fund information is accurate.* Because of these


 Over the past two years, work conducted by outside auditors under contract to the 01G also disclosed numerous material weaknesses
and reportable conditions in the Corporation's financial management controls (see OIG Reports 96-38, Report on the Results ofthe
Auditability Survey, issued in March 1996, and 97-09, Report on the Follow-up Study to the Auditabiliry Survey, issued in December
1996). As a result, CNS began implementing corrective actions, such as reconciling its fund balance with the U.S. Treasury.
However, these corrective actions were not in place during the period of our audit.
conditions, the scope of our work was not sufficient to enable us to conclude that the Gift Fund's
financial records, as summarized in the Schedule of Gift Fund Receipts and Expenditures below, are
complete and reliable.

                    Summary Schedule of Gift Fund Receipts and Expenditures
                                          (Fiscal Years 1994,1995, and 1996)
                                                       Unaudited
                                                      Giftmonation                Ex~enditure                  Balance

    Kauffman                                              $1,500,000                $1,431,281                $ 68,719
    Kellogg                                                  990,000                   625,152                 364,848
    Time Warner                                                10,000                   10,000                       0
    Northrop Grumman                                            6,000                    2,356                   3,644
    Other restricted"                                          67,874                   48,750                  19,124
    Unrestricted                                              146.018                  108.667                  37.351

    Total                                                 $2,719.892                $2.226.206                $493.686

    "Other restricted consists of $67,874 in giftsldonations and $48,750 of expenditures recorded as unrestricted by CNS.
    In OIG's view, these receipts and expenditures should be reported as restricted.


We also found that the Corporation failed to manage its Gift Fund in accordance with spending
restrictions and other requirements established by Congress, Comptroller General decisions, and the
Corporation's policies and procedures for soliciting gifts. Because the funds were not adequately
controlled and managed, the Corporation lacks assurance that its gift funds were not used for
improper or inappropriate activities.

In its response to a draft of the report, the Corporation stated that it generally agreed with our
findings and recommendations and that it was implementing corrective actions to strengthen the
financial management of the Gift Fund. The Corporation disagreed with the recommendation that
the Corporation report an Antideficiency Act violation for having unrestricted fund expenditures in
excess of unrestricted funds available. In the Corporation's view, because the total Gift Fund
balances were sufficient to pay expenditures, the Corporation did not violate the Antideficiency Act.

 Recommended Improvements to National Service Trust Fund Operations (OZG Report 97-31)
We engaged KPMG Peat Marwick LLP to audit the Corporation's National Service Trust Fund
financial statements for fiscal years 1995 and 1994 (OIG report 97-27, Audit of the National Service
Trust Fund Fiscal Year 1995 and 1994 Financial Statements, January 15, 1997). In that report
KPMG reported that the Corporation's internal controls were not adequate to ensure complete and
accurate financial statements. In addition, the Corporation did not maintain adequate accounting
records and other evidential matter in support of the Fund's service award liability, service award
expense, and appropriations transactions. As a result of these conditions, KPMG was unable to
express an opinion on the fairness of the Trust Fund financial statements.
During the engagement KPMG disclosed other issues involving the Trust Fund's internal controls.
In this report KPMG discusses these conditions, and provides recommendations for corrective
actions on both the material weaknesses and the additional conditions that were found.

AUDITS AND REVIEWS OF CORPORATION GRANTEES

OIG performs audits and reviews of selected ArneriCorps programs that have completed one or more
years of program activity. The audits and reviews are carried out by both OIG staff and independent
accounting firms under contract to the OIG.
The audits are intended to assess whether reported costs were allowable under Federal regulations
and whether grantees complied with the terms and conditions of the award. The reviews are
primarily performed to evaluate the accounting systems and management controls of ArneriCorps
programs to determine whether they are adequate for managing the award in accordance with Federal
and grant requirements and for safeguarding Federal funds. We also audit grants that were awarded
by the Corporation's predecessor agencies, the Commission on National and Community Service
and ACTION.

We issued 11 reports on grantees during this period. As illustrated in the table below, our work has
revealed issues in several areas. A brief discussion on the results of our work at each grantee follows
the table.




                          Grantee

                                                          I


  Audits
  Pennsylvania Association of Colleges and Universities
   (OIG Report 97-19)

   Greater Miami Service Corps (OIG Report 97-20)

   PennSERVE -American Youth and Conservation
   Corps (OIG Report 97-22)

   University of Texas at Austin (OIG Report 97-24)

   Volunteer Center of Topeka (OIG Report 97-28)                               No Findings
   Council of State Governments/March of Dimes
   (OIG Report 97-38)
    Reviews
    National Organization for Victim Assistance
    (OIG Report 97- 11)

    National Alliance of Veterans Family Service
    Organizations (OIG Report 97- 12)

I   United States Catholic Conference (OIG Report 97- 16)

I   The Enterprise Foundation (OIG Report 97-21)

    Habitat for Humanity (OIG Report 97-25)                                             No Findings




Summary of Audits and Reviews of Corporation Grantees Issued During the Reporting Period
AUDITS                                                         controls for monitoring subrecipients; and

Audit of the Pennsylvania Association of Colleges and          segregation of duties.
Universities ( O K Report 9 7-19)
                                                            In addition, we reported that PACU incurred
OIG engaged the independent public accounting firm          administrative costs in excess of the maximum allowed
of Leonard G. Birnbaum and Company to audit the             under the terms of the award. We questioned $64,132
funds awarded by the Corporation for National Service       in costs claimed under the award.
to the Pennsylvania Association of Colleges and
Universities (PACU) through the Pennsylvania                In its response to a draft of the report PACU disagreed
Commission on National and Community Service                with the finding that it had incurred administrative
(award number 94ASCPA039). The audit covered the            costs in excess of the maximum allowed under the
costs claimed for the period August 1, 1994 through         terms of the award. As discussed in our March 3 1,
September 30, 1996.                                          1997, Semiannual Report, OIG agrees that grantees
                                                            should not be penalized for problems in the
The audit included an examination to determine              Corporation's regulations over these costs.
whether financial reports prepared by PACU presented
fairly the financial condition of the award, and the        Audit of the Greater Miami Service Corps (OIC
award costs reported to the Corporation were                Report 97-20)
documented and allowable in accordance with the
terms and conditions of the award.                          OIG engaged the independent public accounting fm
                                                            of Tichenor and Associates to audit the funds awarded
The firm found that PACU lacked adequate:                   by the former Commission on National and
                                                            Community Service to the Greater Miami Service
     controls over its financial management system;         Corps (GMSC) for a Defense Conversion Assistance
Program (grant number 93DCLOFL0001). The audit              and the award costs reported to the Corporation were
covered the costs claimed for the period September 30,      documented and allowable in accordance with the
1993 through December 3 1, 1995.                            terms and conditions of the award.

The audit included an examination to determine              We did not question any of the claimed costs as a result
whether financial reports prepared by GMSC presented        of the audit. However, we did note two instances of
fairly the financial condition of the award, and that the   noncompliance, the first of which was considered
award costs reported to the Corporation were                material. Specifically, PennSERVE:
documented and allowable in accordance with the
terms and conditions of the award.                             was unable to demonstrate that it had submitted all
                                                               required annual and quarterly progress reports; and
The firm found that GMSC:
                                                               did not obtain approval for budget revisions (i.e.,
    claimed unsupported or unallocable costs;                  transfers of funds between cost categories in excess
                                                               of ten percent of total costs).
    paid stipends to ineligible participants;
                                                            In its response to a draft of the report PennSERVE
    paid stipends to Members as a wage;                     concurred with the findings and stated that they had
                                                            begun corrective actions. The Corporation did not
    did not keep adequate records to determine whether      provide comments.
    Members completed the required number of service
    hours; and                                              Audit of the University of Texas at Austin (OZG
                                                            Report 9 7-24)
    expended funds budgeted for Member costs in
                                                            OIG engaged the independent public accounting firm
    other categories without approval of the
                                                            of Leonard G. Bimbaum and Company to audit the
    Corporation.
                                                            funds awarded by the Corporation for National Service
                                                            to the University of Texas at Austin (UTA) under grant
We questioned $427,403 in costs claimed under the
                                                            number 94ADNTX045. The audit covered the costs
award.
                                                            claimed during the period August 1, 1994 through
                                                            September 30, 1996.
In its response to a draft of the report, the Corporation
stated that it had not conducted a comprehensive
                                                            The audit included an examination to determine
review of the report and was unable to provide
                                                            whether financial reports prepared by UTA presented
comments. GMSC did not provide a response within
                                                            fairly the financial condition of the award, and the
the 30 day response period.
                                                            award costs reported to the Corporation were
                                                            documented and allowable in accordance with the
Audit of PennSERVE (American Youth and
                                                            terms and conditions of the award.
Conservation Corps) (OIG Report 97-22)
                                                            The firm found that UTA:
OIG engaged the independent public accounting firm
of Leonard G. Bimbaum and Company to audit the                  lacked adequate        controls   for    monitoring
funds awarded by the former Commission on National              subrecipients;
and Community Service to PennSERVE for the
American Youth and Conservation Corps program                   lacked an adequate labor distribution system for
(award number 92COSTPA0022). The audit covered                  non-professorial and non-professional staff;
the costs claimed during the period July 22, 1992 to
September 3, 1995.                                              lacked adequate controls for tracking and
                                                                monitoring service hours performed by
The audit included an examination to determine                  AmeriCorps Members; and
whether financial reports prepared by PennSERVE                 lacked adequate controls over the maintenance of
presented fairly the financial condition of the award,          records.
We questioned $5,711 in costs claimed under the           The audit included an examination to determine
award.                                                    whether financial reports prepared by the Council of
                                                          State Governmentsh4arch of Dimes presented fairly
In its response to a draft of this report UTA concurred   the fmancial condition of the award, and that the award
with the findings and questioned costs and stated that    costs reported to the Corporation were documented and
they had begun corrective actions. The Corporation did    allowable in accordance with the terms and conditions
not provide comments.                                     of the award.

Audit of the Volunteer Center of Topeka (OIG Report       The firm found that:
9 7-28)
                                                             unreasonable or unallocable costs were charged to
OIG engaged the independent public accounting firm
                                                             the grant;
of Leonard G. Birnbaum and Company to audit the
funds awarded by the Corporation to the Volunteer
                                                             the Council of State Governments and March of
Center of Topeka for its Retired Senior Volunteer
                                                             Dimes operating sites did not meet cost matching
Program (grant number 340-W040). The audit covered
the costs claimed for the period January 1, 1994             requirements; and
through March 3 1, 1997.
                                                              one operating site paid AmeriCorps Member
The audit included an examination to determine                support costs for a two month period in which the
whether financial reports prepared by the Volunteer           project was not operating.
Center presented fairly the financial condition of the
award, and that the award costs reported to the           We questioned $80,287 in costs claimed under the
Corporation were documented and allowable in              award.
accordance with the terms and conditions of the award.
                                                          In their response to a draft of the report the Corporation
The audit disclosed no questioned costs, material         stated that it had not conducted a comprehensive
instances of noncompliance, or any matters involving      review of the report and was unable to provide
the internal control structures and its operations that
                                                          comments. The Council of State Governments
were considered to be a material weakness.                concurred with several findings and stated that it would
                                                          follow up on the other issues reported with the March
Audit of the Council of State GovernrnentsMarch of        of Dimes and respond to the OIG at a later date.
Dimes (OIG Report 97-38)                                  However, as of the issuance date of the report,
OIG engaged the independent public accounting firm        September 30, 1997, OIG had not received any
of Foxx and Company to audit the funds awarded by         additional information on the findings. We
the Corporation to the Council of State                   recommended that the follow up information be sent to
GovernmentsMarch of Dimes (cooperative agreement          the Corporation's Office of Grants Management for
number 95ADNKY008). The audit covered the costs           their use in the audit resolution process.
claimed for the period August 1, 1995 through
December 3 1, 1996.
REVIEWS                                                   grant expenditures and to safeguard Federal funds;
                                                          specifically:
Review of the National Organization for Victim
Assistance (OZG Report 97-11)                                NAVFSO's financial management system was not
                                                             adequate to produce reports of grant expenditures
OIG engaged the independent public accounting firm           that are current, accurate and complete;
of Tichenor and Associates to perform a limited review
of the National Organization for Victim Assistance's         the system of accounting controls of NAVFSO did
(NOVA) financial reporting and accounting systems to         not adequately safeguard Federal funds because
assess their ability to comply with Federal fiscal           controls over disbursements for travel
accounting and reporting requirements and to safeguard       reimbursements were weak;
related funds. The review revealed that NOVA's
accounting systems and management controls were              the accounting controls of the Veterans Benefits
inadequate to report grant expenditures and to               Clearinghouse (VBC), a subgrantee, were not
safeguard Federal funds; specifically:                       adequate to prevent unallocable and unallowable
                                                             costs fiom being claimed as grant expenditures; and
   NOVA's financial management system was not
   adequate to properly record grant expenditures;           the program activities of the subgrantees were not
                                                             adequately monitored by NAVFSO, the parent
   NOVA did not adequately monitor subgrantee                organization, because no procedures were
   activity in the areas of reporting financial status,      established to collect data on accomplishment of
   establishing AmeriCorps Member eligibility,               program objectives.
   providing health insurance for Members, and
   quantifying program accomplishments; and               We questioned $10,653 in costs claimed under the
                                                          award.
    the procedures of the Fund for the City of New
    York, a subgrantee, were inadequate for               In its comments on a draft of this report, the
    summarizing and reporting AmeriCorps Member           Corporation stated that it has been working with
    service hours.                                        NAVFSO to resolve the fmancial system inadequacies
                                                          identified in the report. NAVFSO generally agreed
We questioned $15,656 in costs charged to the grant.      with the management control findings and stated that it
                                                          had taken corrective actions. NAVFSO disagreed with
In its response to a draft of the report NOVA generally   the questioned costs.
disagreed with the findings and provided additional
information to the firm. We updated several findings      Review of the Unitedstates Catholic Conference (OZG
based on the information NOVA provided; however,          Report 97-16)
the information did not warrant any revision to our
conclusions.                                              OIG engaged the independent public accounting fm
                                                          of Tichenor and Associates to perform a limited review
Review of the National Alliance of Veterans Family        of the United States Catholic Conference's (USCC)
Service Organizations (OIG Report 97-12)                  financial reporting and accounting systems to assess
                                                          their ability to comply with Federal fiscal accounting
 OIG engaged the independent public accounting firm       and reporting requirements and to safeguard related
 of Tichenor and Associates to perform a limited review   funds. The review revealed that USCC's accounting
 of the National Alliance of Veterans Family Service      systems and management controls were inadequate to
 Organizations' (NAVFSO) financial reporting and          report grant expenditures and to safeguard Federal
 accounting systems to assess their ability to comply     funds; specifically:
 with Federal fiscal accounting and reporting
 requirements and to safeguard related funds. The             USCC claimed costs as reimbursable by the
 review revealed that NAVFSO's accounting systems             Corporation when the amounts were charged as
 and management controls were inadequate to report            matching on the books of account;
   USCC claimed direct program costs for salaries and      funds. The conditions leading to this conclusion
   benefits that were administrative in nature, and as     included:
   a result, exceeded the statutory five percent
   limitation on such costs;                                  the Enterprise Foundation and its subgrantees
                                                              claimed costs which were either not supported by
   USCC and its subgrantees claimed costs that were           adequate source documentation or not allocable to
   unsupported or unallocable to the grant;                   the AmeriCorps grant;

   USCC did not adequately monitor the financial              the Enterprise Foundation incorrectly claimed
   activity of its subgrantees;                               administrative costs as direct program costs under
                                                              the grant. As a result, we reclassified claimed
   USCC subgrantees assigned AmeriCorps members               direct costs and questioned administrative costs
   to inappropriate activities; and                           which were in excess of the five percent cap; and

   a USCC subgrantee lacked procedures to                     the Enterprise Foundation and its subgrantees did
   accumulate and approve Member service hours.               not accumulate adequate information to track the
                                                              accomplishment of program objectives under the
We questioned $62,360 in costs claimed under the              grant.
award.
                                                           We questioned $6 1,626 in costs charged to the grant.
In its response USCC generally disagreed with the
findings. USCC also stated that it did not decline to      In its response to a draft of this report, the Corporation
provide the auditors with necessary information related    stated that it had not conducted a comprehensive
to progress reports that the auditors needed to complete   review of the report and was unable to provide
their work, only to internal monthly program reports.      comments. The Enterprise Foundation generally
However, these internal monthly reports provide the        disagreed with the findings and provided additional
support for the progress reports, and were necessary for   information. We updated the findings based on the
the auditors to evaluate whether USCC adequately           information provided; however, the information did not
monitored the performance of its AmeriCorps project.       warrant any revision to our conclusions.

Review of the Enterprise Foundation (OIC Report            Review of Habitat for Humanity (OIC Report 97-25)
9 7-21)
                                                           We engaged the independent public accounting fm of
OIG engaged the independent public accounting firm         Leonard G. Birnbaum and Company to review the costs
of Tichenor and Associates to perform a limited review     incurred by Habitat for Humanity and reported on the
of the Enterprise Foundation's financial reporting and     Financial Status Reports to the Corporation (grant
accounting systems to assess their ability to comply       number 94ADNGA0 15). Based on their review, the
with Federal fiscal accounting and reporting               firm concluded that costs incurred by Habitat from
requirements and to safeguard related funds. The           July 1, 1994 through December 3 1, 1995 were accurate
review revealed that the Foundation's accounting           and in conformance with the terms and conditions of
systems and management controls were inadequate to         the grant.
report grant expenditures and to safeguard Federal
                   REPORTS ISSUED DURING THE PERIOD
                 APRIL 1,1997 THROUGH SEPTEMBER 30,1997
                                                                      Federal       Federal
Report   Start     Issue                                              Dollars       Dollars
Number   Date      Date                  Report Name                 Questioned   Unsupported


                                                                         (Dollars in thousands)

                           Review of the National Organization for
                           Victim Assistance

                           Review of the National Alliance of
                           Veterans Family Service Organizations

                           Review of the United States Catholic
                           Conference

                           Audit of Pennsylvania Association of
                           Colleges and Universities
                           Audit of the Greater Miami Service
                           Corps

                           Review of the Enterprise Foundation

                           Audit of PennSERVE (Youth and
                           Conservation Corps)

                           Audit of the University of Texas at
                           Austin

                           Review of Habitat for Humanity
                           International, Inc.
                           Audit of the Volunteer Center of Topeka


                           Follow-up to the Auditability Survey
                           (Phase 2)

                           Audit of the CNS Gift Fund

                           Recommended Improvements for the
                           Trust Fund
                           Audit of The Council of State
                           Govemments/March of Dimes


                           TOTAL
AUDIT RESOLUTION

Under the Corporation's audit resolution policy, and in accordance with applicable laws and
regulations, Corporation management is responsible for evaluating findings in OIG reports,
proposing corrective actions, and verifying that corrective actions are implemented within
established time frames. Corrective actions must address all conditions identified in the reports.
Management decisions addressing findings are to be made within six months after report issuance.

In our last Semiannual Report we commented on the Corporation's delays in making management
decisions and the backlog of unresolved audit reports. Since that date, some progress has been made.
Most significantly, the Corporation agreed to implement a new audit resolution process. Under the
new process, representatives fiom the Offices of the Chief Financial Officer, Inspector General, and
General Counsel (and any other area covered by an audit) meet on a monthly basis to discuss audit
findings and necessary actions the Corporation must take to address OIG recommendations. The
objective is to achieve consensus on the final management decision within four months of issuance
of an OIG report.

All audit reports with a management decision date after August 1, 1997, are being coordinated under
the new resolution process. Currently seven OIG reports are active in the new process. It will take
several months before we can determine whether audit resolution has improved under the
Corporation's new process.

During this reporting period we also made some progress in reducing the backlog of unresolved audit
reports. As of March 3 1, 1997, we reported 3 1 audits with overdue management decisions. At
September 30, 1997, this number had been reduced to 25 (see Table 111, Summary of Audits With
Overdue Management Decisions, page 18). During the reporting period we reached agreement on
15 audits, however, nine new reports became overdue.

The Corporation has also recently developed a new audit tracking system. The system contains OIG
audit reports with open recommendations and those for which final action is not yet complete. This
system, which will be updated twice a month based on input from the OIG, CFO and Grants
Management Office, allows for monitoring the current status of open recommendations. Written
procedures for maintaining the tracking system are being finalized.
                                  INVESTIGATIONS
We began this reporting period with eighteen previously-opened investigative actions. During the
reporting period we opened fourteen new investigative actions and closed twenty-one. We had
eleven investigative actions pending at the end of this reporting period.

HIGHLIGHTS OF INVESTIGATIONS CLOSED DURING THIS REPORTING PERIOD

        Admitted False Claim - Federal Prosecution Declined - Employees Terminated

We completed an investigation we opened subsequent to receiving a copy of a document that caused
us to believe a Corporation employee, with the assistance of a Corporation contract employee, used
a Corporation facsimile machine in an attempt to fraudulently obtain public assistance from the City
of Alexandria, Virginia. The U.S. Attorney declined to prosecute, citing the dollar loss and the
greater interest of the Commonwealth of Virginia. We provided the information to the Alexandria
Police Department and they reported they would pursue potential Commonwealth violations. We
pursued the matter administratively and interviewed each of the employees. Both employees
provided statements wherein they admitted preparing and submitting a false document in support
of the Corporation employee's attempt to obtain public assistance. Corporation management
immediately placed the government employee on administrative leave and instructed the contractor
responsible for providing the contract employee to remove the contract employee from Corporation
premises. The government employee later resigned from Federal service. We also identified a
second contract employee who possessed information concerning the preparation and submission
of the form but did not report the matter. Corporation management declined to take action against
the second contract employee, stating action was not warranted inasmuch as the second contract
employee advised the first contract employee to report the matter to the Corporation's Director of
Accounting, although no such report was made. (97-017)

                   Alleged Employee Misconduct - Referred to Management

We completed an investigation we opened subsequent to receiving an anonymous complaint alleging
that an employee of another Federal agency, working on a detail to the Corporation in a supervisory
position, was working irregular hours while his time sheets reflected he was working "regular and
full" hours. Our inquiry determined that the time sheets prepared by the employee, and ultimately
submitted to the employee's agency, did not always accurately reflect the hour he arrived at his
office and the hour he departed his office. We could not determine that the total number of hours
claimed each pay period by the employee were incorrect, therefore we concluded that the employee's
actions did not constitute a violation of Federal criminal law. We referred our findings to
management for resolution. (97-022)
                                                   -
                   Alleged Employee Misconduct Referred to Management

We completed an investigation we opened subsequent to receiving information from an
AmeriCorps*VISTAthat while attending an ArneriCorps*VISTA pre-service orientation in Chicago,
Illinois, her roommate may have been assaulted by an employee at one of the Corporation's state
offices. Our investigation developed evidence to indicate the Corporation state office employee
acted in violation of Corporation regulations and the Code of Federal Regulations. Based upon the
evidence documented in our investigation, the Corporation suspended the employee, without pay,
for fourteen calendar days for unprofessional conduct unbecoming a Federal employee. (97-013)

             Alleged Misuse of Corporation Resources - Reported to Management

We completed an investigation we opened subsequent to our receipt of an August 1, 1996 letter on
Corporation letterhead that was addressed and faxed to a Department of Commerce official, with a
copy provided to an individual at the Democratic National Committee (DNC). The letter, signed by
a person who was a Corporation employee at the time the letter was prepared and faxed, discussed
a request by a group of Indo-Americans to have a meeting with someone in the Clinton
Administration who could discuss U.S. trade policy with India. The letter became public as part of
the ongoing investigations by the Department of Justice and the U.S. Senate Committee on
Governmental Affairs into campaign fund raising.

We found no evidence or indication that the intended purpose of the letter was anything other than
arranging a meeting between the Department of Commerce official and a group of interested Indo-
Americans. In addition, our investigation disclosed no evidence or indication that this meeting took
place. Further, we found no similar correspondence prepared by the former Corporation employee,
nor did we find any other evidence of similar use of Corporation resources by the individual. The
identifiable cost to the Corporation for the resources used by the former employee to fax the letter
was less than $1.00. We provided the results of our investigation to Corporation management for
whatever action the Corporation deemed appropriate. (97-020)

     Corporation's Relationship With Non-Profit Organization - Investigation Concluded

We completed an investigation that we opened subsequent to determining that issues we raised
regarding the relationship between the Corporation and a non-profit organization were not
satisfactorily explained by documents and information obtained during the course of our initial
review. We conducted further inquiries and ultimately referred the matter to the Department of
Justice. We were notified that the investigation into the matter has been concluded and remains
under seal. We provided the results of our preliminary inquiry to the Corporation's Chief Executive
Officer for whatever action he deemed appropriate. (96-0 19)
                 Procurement Findings - Management Takes Corrective Action

We completed an investigation that we opened subsequent to developing information that Federal
regulations may have been violated when the Corporation obligated funds available through
September 30, 1995 for fiscal year 1997 services under a contract between the Corporation and one
of its contractors. We determined there was statutory authority for the obligation of funds in one
fiscal year for services, to include severable services, to be provided in the following fiscal year. We
did note however, a practice involving recruitment of the contractor's employees that could
adversely affect the Corporation's rights under the contract and that could result in, at the very least,
the appearance that the Corporation was circumventing contract provisions in order to afford current
and former Corporation employees an unfair advantage in obtaining civilian employment. These
findings were reported to Corporation management. In response to our findings, Corporation
management issued a memorandum to Corporation officers and department heads, advising them
that Corporation contractors are "...fully responsible for recruitment and referral of qualified people
to fulfill our stated work needs." The memorandum also informed the officers and department heads
that "...Corporation staff are not to engage in providing [to the contractor] names and resumes of
candidates...," and asked them to distribute the information to appropriate staff members within their
departments. (97-005)
                            STATISTICAL SUMMARY OF INVESTIGATIONS


    Opened and Closed
    Number of Cases Open at Beginning of Reporting Period..............................


    Number of New Cases Opened During This Reporting Period.......................


    Number of Cases Closed During This Period With
     . .         . .
    Significant Findings.........................................................................................


    Number of Cases Closed During This Period With
        . .         . .
    No Significant Flndings...................................................................................

    Total Cases Closed This Reporting Period......................................................

    Number of Cases Open at End of Reporting Period ........................................
     Referred
     Number of Cases Referred for Prosecution During
     This Reporting Period......................................................................................


     Number of Cases Accepted for Prosecution During
     This Reporting Period ......................................................................................


     Number of Cases Declined for Prosecution During
     This Reporting Period......................................................................................

     Number of Cases Pending Prosecutive Review...............................................




' Includes one case presented for prosecution during a previous reporting period and declined during this reporting period.
                               TABLE I
           INSPECTOR GENERAL REPORTS WITH QUESTIONED COSTS

                                                          Federal Costs
                                           Number   Questioned     Unsupported

                                                       (Dollars in thousands)

1. For which no management decision           25     $3,058           $1,264
   had been made by the commencement
   of the reporting period
2.   Which were issued during the
     reporting period
3.   Subtotals (1 plus 2)
4.   For which a management decision was
     made during the reporting period
     (i)     dollar value of disallowed
             costs
     (ii)     dollar value of costs not
              disallowed
5. For which no management decision
   had been made by the end of the
   reporting period
   (3 minus 4)




6. Reports with questioned costs for          13      $2,357
   which no management decision was
   made within six months of issuance
                          TABLE I1
     INSPECTOR GENERAL REPORTS WITH RECOMMENDATIONS
              THAT FUNDS BE PUT TO BETTER USE

                                                     Number   Dollar Value


A.   For which no management decision had been
     made by the commencement of the reporting
     period


B.   Which were issued during the reporting period


C.   For which a management decision was made
     during the reporting period


     (i)    dollar value of recommendations that
            were agreed to by management


            --     based on proposed management
                   action


            --     based on proposed legislative
                   action


     (ii)   dollar value of recommendations that
            were not agreed to by management


D.   For which no management decision has been
     made by the end of the reporting period
     Reports for which no management decision was
     made within six months of issuance
                       TABLE I11
 SUMMARY OF AUDITS WITH OVERDUE MANAGEMENT DECISIONS

                                                       Federal             Mgmt      Status as of
Report                                                 Dollars            Decision   September
Number                  Title                         Questioned           Due*       30,1997
                                           (Dollars in thousands)

         Fresno Adult Literacy                               $       2

         Commonwealth of Kentucky                                     1

         Review of the National AIDS Fund                            0

         Review of the National Center for
         Family Literacy

         Review of The Arc of the United                             12
         States

         Review of the National Association
         of Community Health Centers, Inc.

         Review of the Home Instruction
         Program for Preschool Youngsters

         Audit of the Greater Miami Service                         625
         Corps

         Audit of Public Allies                                      14

         Audit of ACORN Housing                                      61

         Review of the Local Initiatives
         Support Corporation
         Review of the National Council of                           36
         Educational Opportunity
         Associations

         Pre-Audit Survey of CNS Grants                             N/A
         Process

         Pre-Audit Survey of CNS
         Procurement Process

         Audit of CNS Fiscal Year 1994
         Financial Statements
                         TABLE I11
   SUMMARY OF AUDITS WITH OVERDUE MANAGEMENT DECISIONS
                                                        --                    -    -



                                                          Federal                  Mgmt      Status as of
 Report                                                   Dollars                 Decision   September
 Nurn ber                     Title                      Questioned                Due*       30,1997
                                              (Dollars in thousands)

              Report on the Results of the                      $ N/A
              Auditability Study

              Audit of PennSERVE                                       875

              Audit of the Oregon Youth                                280
              Conservation Corps

               Review of Kansas City Consensus                           0

               Review of YouthNet of Greater                             0
               Kansas City

               Review of the Legal Services                             82
               Corporation

               Review of the University of                              59
               Maryland at Baltimore County

               Auditability Study Follow-up                            N/ A
               Survey (Report 1)

               Review of the Presidio Leadership                       N/ A
               Center

               Audit of the Trust Fund Fiscal Year
               1995 & 1994 Financial Statements                   N/A
               Total                                             $2.357

* Under Federal regulations a final management decision must be made within 6 months of the final
report issuance.

Status
1 Proposed Management Decision (PMD) not received.
2 Substantial agreement on issues - awaiting revised PMD.
3 PMD received, but agreement not reached on all issues.
4 PMD received September 30, 1997 and is currently under review.
5 PMD was not accepted; further action is required by Corporation management.
                               TABLE IV
                 REPORTS DESCRIBED IN PRIOR SEMIANNUAL
                     REPORTS WITHOUT FINAL ACTION

                                                             Final
  Report                                             Date    Action          Status Of
  Number                      Title                 Issued   Due*           Final Action

For which there is no management decision

               Fresno Adult Literacy                                  Management Decision is
                                                                      overdue (due 4/5/95)
               Commonwealth of Kentucky                               Management Decision is
                                                                      overdue (due 3/24/96)
               Review of the National AIDS Fund                       Management Decision is
                                                                      overdue (due 8/8/96)
               Review of the National Center for                      Management Decision is
               Family Literacy                                        overdue (due 2117/97)

               Review of The Association of                           Management Decision is
               Retarded Citizens                                      overdue (due 12/2/96)

               Review of the National Association                     Management Decision is
               of Community Health Centers Inc                        overdue (due 12111/96)

               Review of the Home Instruction                         Management Decision is
               Program for Preschool Youngsters                       overdue (due 1/27/97)

               Audit of the Greater Miami Service                     Management Decision is
               Corps                                                  overdue (due 1/5/97)

               Audit of Public Allies                                 Management Decision is
                                                                      overdue (due 9/23/96)
               Audit of ACORN Housing                                 Management Decision is
               Corporation                                            overdue (due 9/25/96)

               Review of the National Council on                      Management Decision is
               Educational Opportunities                              overdue (due 3/25/97)

               Pre-Audit Survey of CNS Grants                         Management Decision is
               Process                                                overdue (due 9/16/96)

               Pre-Audit Survey of CNS                                Management Decision is
               Procurement Process                                    overdue (due 9116/96)

               Audit of CNS Fiscal Year 1994                          Management Decision is
               Financial Statements                                   overdue (due 911 1/96)

               Report on the Results of the                           Management Decision is
               Auditability Study                                     overdue (due 9/25/96)
                                  TABLE IV
                    REPORTS DESCRIBED IN PRIOR SEMIANNUAL
                        REPORTS WITHOUT FINAL ACTION

                                                                               Final
  Report                                                          Date         Action               Status Of
  Number                            Title                        Issued        Due*                Final Action

For whichfinal action has not been reported

                  Review of the New Orleans Youth                               3/5/97      Final Action Has Not
                  Action Corps                                                              Been Reported To OIG

                  Audit of the Northwest Service
                  Academy

                  Audit of the Georgia Department of
                  Community Affairs

                  Audit of the Montana Conservation
                  Corps

                  Review of the I Have a Dream
                  Foundation

                  Review of the Oneida Indian
                  Nation

                  Review of the Mid-Atlantic
                  Network of Youth & Family
                  Services

                  Audit of Bowie State University



*For reports issued before February 10, 1996 (Report Numbers 94-09-60,95-27, and 96-05), the final action due date
is 18 months from the issuance of the report, as established in the regulations of ACTION, the Corporation's predecessor
agency. For reports issued after that date, the final action due date is 12 months from the report issuance date, as
established under section 6009 of the Federal Acquisitions StreamliningAct, Public Law 103-355, as amended.
                        INDEX TO REPORTING REQUIREMENTS OF
                            THE INSPECTOR GENERAL ACT
-       -   -




IG Act ~eference*                                Reporting Requirement                             Page

Section 4 (a)(2)          Review of Legislation and Regulations.

Section 5 (a)(l)          Significant problems, abuses, and deficiencies related to the
                          administration of CNS programs and operations.

Section 5 (a)(2)          Recommendations with respect to significant problems, abuses, and
                          deficiencies found in the administration of CNS programs and
                          operations.

Section 5 (a)(3)          Prior significant recommendations on which corrective action has not
                          been completed.

Section 5 (a)(4)          Matters referred to prosecutive authorities.

Section 5 (a)(5)           Summary of instances where information was refused.

Section 5 (a)(6)           List of audit reports by subject matter showing dollar value of
                           questioned costs and recommendations that funds be put to better use.

Section 5 (a)(7)           Summary of each particularly significant report.

Section 5 (a)@)            Statistical table showing number of reports and dollar value of
                           questioned costs.

Section 5 (a)(9)           Statistical table showing number of reports and dollar value of
                           recommendations that funds be put to better use.
Section 5 (a)(10)          Summary of each audit issued before this reporting period for which
                           no management decision was made by end of reporting period.

Section 5 (a)(l 1)         Significant revised management decisions.

    Section 5 (a)(12)      Significant management decisions with which the Inspector General
                           disagrees.




    * Refers to sections in the Inspector General Act of 1978, as amended.
          SUMMARY REPORT OF ACCOMPLISHMENTS FOR
                     FISCAL YEAR 1997

AUDIT PERFORMANCE MEASURES

One of our strategic goals continues to be improved delivery of OIG services, reports and other work
products. Although we are developing new measures to augment our originally established audit
statistics, we have continued to monitor the number of audit reports we issued annually, their cost
and their timeliness, as the table below illustrates.


                              AUDIT PERFORMANCE STATISTICS


                                                                        Fiscal Year



    Number of Audit Reports

    Questioned Costs (in thousands)

    Costs per Audit Hour
      OIG Staff*
      Contracted Services

    Timeliness**                                        ---                  168 days             223 days


    *       OIG cost per hour estimate is based on the total salary and benefits costs for audit staff divided
            by the direct hours charged to audit assignments.

     **     From inception of a grant auditheview through issuance of the final report and thus including a
            30 day response period.




As shown above, two audit performance measures had significant changes between fiscal years 1996
and 1997. First, the cost per audit hour for OIG staff increased. The primary reason for this
increase was the large turnover in audit staffing during this fiscal year -two auditors retired and
a third transferred to another organization within the Corporation. During this period of turnover,
the utilization rate (the amount of time spent on audit assignments versus other activities) for
auditors dropped significantly. In fiscal year 1996, auditors spent approximately 65 percent of their
time directly on audit assignments. In fiscal year 1997, the utilization rate dropped to about 50
percent. Our goal for fiscal year 1998 is for auditors to spend at least 65 percent of their time
directly on audits.

The second performance measure with a significant change between fiscal years 1996 and 1997 was
in the timeliness of audit reports issued. It took an average of 55 more days to issue a report in fiscal
year 1997 than in fiscal year 1996. The factors contributing to this increase included:

        The complexity of assignments performed by OIG staff and independent accounting firms
        under contract increased. These assignments included OIG7s Review of the Presidio
        Leadership Center and our continuing follow-up studies on auditability issues at the
        Corporation.
.       Lack of timely performance by several independent public accounting firms under contract
        to the OIG. We are no longer utilizing the services of these firms.


INVESTIGATIONS PERFORMANCE MEASURES
The basic mission of the OIG investigative element is to l a h l l y determine as many of the facts as
possible surrounding a given incident. The incident under review may include allegations of
criminal activity, allegations of non-criminal activity, or allegations that include both criminal
activity and non-criminal activity. The basic mission of the investigative element remains
unchanged regardless of the nature of the incident: Determine as many facts as possible surrounding
a given incident. How an allegation is developed, i.e., reactively or pro-actively, has no impact on
the basic mission.

What occurs after the initial receipt of a complaint, allegation, or information that results in the
development of a complaint or allegation, varies, depending primarily upon whether the matter is
criminal or non-criminal, and if criminal, whether or not it is accepted by the Department of Justice
for prosecution.

All matters involving evidence of Federal criminal violations are referred to the Department of
Justice for a prosecutive decision. This does not mean that all allegations of Federal criminal
violations are referred; only those with evidence of a Federal criminal violation are referred, with
some exceptions. For example, all allegations of significant fraud and all allegations against certain
senior government officials are referred to the Department of Justice without regard to the amount
of evidence available at the time the allegations are received. The majority of the criminal matters
we investigate involving Corporation programs and operations are declined for prosecution by the
Department of Justice because of the low dollar amounts involved. We have had no declinations of
a criminal matter because of our inability to sufficiently develop evidence of criminal misconduct.
Those matters that we determine are non-criminal and those matters that have been declined for
prosecution by the Department of Justice are often referred to Corporation management for
administrative action. This administrative action might involve suspension or even removal of an
employee. Administrative action could also involve a redesign or refinement of a process or system
that was identified by our efforts as one that could be improved. When we refer such matters to
management, we usually request that management provide us a brief narrative of what, if any,
administrative action was taken as a result of the referral to them.

One other area that deserves mention involves those matters (criminal and non-criminal) that we find
did not occur, did not occur as alleged, or were not within our purview. While some of these matters
are as important as a founded criminal investigation (and as such are identified and reported
separately), the majority are minor and we combine them in one quarterly file, without opening a
separate investigative action. Regardless of the severity however, each matter requires some degree
of preliminary inquiry. The following table presents statistics on our investigative workload.


                      INVESTIGATIONS PEFWORMANCE STATISTICS


                                                               Fiscal Year


    Investigative Actions Opened                  23                 39                31


    Investigative Actions Resolved and
    Closed                                        14



    Average Monthly Caseload                   Unknown               23                19



    Investigative Matters Resolved Without
    Opening a Separate Investigative Action    Unknown




    Referrals for Prosecution


    Administrative or Management Action
                                                  2
The total number of investigative matters reported (the sum of Investigative Actions Opened and
Investigative Matters Resolved Without Opening a Separate Investigative Action) increased from
87 in fiscal year 1996 to 100 in fiscal year 1997. This increase may be explained in part by a
developing awareness of the OIG's existence and purpose, coupled with the growth of the agency's
programs and participation level.

The total number of Investigative Actions Opened decreased from 39 in fiscal year 1996 to 3 1 in
fiscal year 1997. The reason for part of this decrease is apparent when viewed alongside the increase
in fiscal year 1997 of Investigative Matters Resolved Without Opening a Separate Investigative
Action. We simply resolved the less significant matters without initiating a separate, more visible,
investigative file--we did a little more investigating and less administrating.

The total number of Investigative Actions Resolved and Closed increased from 29 in fiscal year 1996
to 46 in fiscal year 1997. There are two possible explanations for this increase. First, we had three
investigators working throughout fiscal year 1997 whereas we had only two working in fiscal year
1996. Second, by resolving more investigative matters without opening a separate investigative
action in fiscal year 1997, we were able to shift the effort that would have been expended on
administratively opening and closing several minor cases to closing the backlogged cases.

One of our more significant criminal investigations is currently in the hands of the U.S. Attorney and
is pending presentation to the Federal grand jury. In another criminal matter that was handled
administratively after the U.S. Attorney declined to prosecute, the Corporation accepted the
resignation of one government employee and required that a Corporation contractor remove a
contractor-employee from the Corporation premises. Following one of our employee misconduct
investigations, Corporation management suspended the employee, without pay, for fourteen calendar
days. Other investigative matters have resulted in recommendations to Corporation management
that corrective actions be taken to correct cited deficiencies or crime conducive conditions.
                           Corporation for National Service
                            Office of the Inspector General
                        Summary of Obligations and Expenditures
                                      (in thousands)

                                                          Fiscal Year




Salaries and Benefits

Travel


Contracted Audit and Advisory Services:
   Corporation Operations and Activities
   Grant Audits and Reviews

Training

Supplies


Furniture and EDP Equipment

Contract Services and Other Office
Support

     Total Obligations
